Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  ABERRANT CLAIM PATTERNS
  FOR INHALATION DRUGS IN
       SOUTH FLORIDA




                    Daniel R. Levinson
                     Inspector General

                       April 2009
                     OEI-03-08-00290
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                   S U M M A R Y


                  OBJECTIVES
                  1. To compare Medicare utilization and spending for inhalation
                     drugs among beneficiaries in South Florida to utilization and
                     spending among beneficiaries in the rest of the country.

                  2. To compare Medicare supplier billings for inhalation drugs in
                     South Florida to Medicare supplier billings in the rest of the
                     country.

                  3. To compare beneficiary utilization of inhalation drugs (in South
                     Florida and the rest of the country) to utilization guidelines set by
                     the Medicare program.

                  4. To examine relationships between inhalation drug suppliers,
                     prescribing physicians, and Medicare beneficiaries in South
                     Florida.


                  BACKGROUND
                  Medicare Part B covers inhalation drugs when they are used in
                  conjunction with durable medical equipment (DME). Beneficiaries
                  typically obtain DME items, including inhalation drugs, through
                  suppliers, which then submit claims to Medicare on behalf of the
                  beneficiaries. The Centers for Medicare & Medicaid Services (CMS)
                  contracts with four geographically defined DME Medicare
                  Administrative Contractors to process and pay for DME claims. CMS
                  also contracts with Program Safeguard Contractors (PSC) to administer
                  benefit integrity functions and conduct medical review.
                  CMS may establish national coverage determinations for DME items.
                  National coverage determinations specify whether certain medical
                  items, services, treatment procedures, or technologies are eligible for
                  Medicare payment. When a national coverage determination does not
                  exist or when there is need for further definition, a local coverage
                  determination (LCD) may be established by a CMS contractor. An LCD
                  for inhalation drugs (L5007), originally effective on April 1, 1997, and
                  revised on July 1, 2007, establishes coverage limitations such as the
                  maximum milligrams per month that may reasonably be billed for a
                  beneficiary.

                  We used the Medicare National Claims History file to identify all
                  inhalation drug claims in 2007. We compared the average number of
                  paid claims and the dollar amount paid for inhalation drug claims for

OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   i
E X E C U T I V E                       S U          M M A R Y


                   beneficiaries in South Florida (Miami-Dade, Broward, and Palm Beach
                   Counties) to beneficiaries in the rest of the country. We compared the
                   average amount submitted and paid per supplier for beneficiaries in
                   South Florida to the average amount submitted and paid per supplier
                   for beneficiaries in the rest of the country. We also compared the
                   average Medicare spending per beneficiary for inhalation drugs in
                   South Florida and the rest of the country to the amounts associated
                   with the maximum milligrams listed in the LCD. Finally, we
                   determined the percentage of paid South Florida inhalation drug claims
                   in 2007 for which the beneficiary did not have any Medicare Part B
                   service claims (e.g., a Medicare-billed office visit) occurring in 2005,
                   2006, or 2007 with the physician who reportedly prescribed the drug.


                   FINDINGS
                   Although only 2 percent of Medicare beneficiaries live in South
                   Florida, this area accounted for 17 percent of Medicare spending on
                   inhalation drugs in 2007. Medicare paid almost $143 million for
                   inhalation drugs in Miami-Dade County alone—an amount 20 times
                   greater than the amount paid in Cook County, Illinois, the county
                   (outside South Florida) with the next highest total payments. However,
                   according to Medicare enrollment data, Cook County is home to almost
                   twice as many Medicare beneficiaries as Miami-Dade County.

                   In 2007, Medicare’s average per-beneficiary spending on inhalation
                   drugs was five times higher in South Florida than in the rest of the
                   country. Among beneficiaries with paid inhalation drug claims,
                   Medicare spent approximately $4,400 per South Florida beneficiary on
                   inhalation drugs, compared to just $815 per beneficiary on inhalation
                   drugs in the rest of the country.

                   For individual inhalation drugs, Medicare per-beneficiary spending on
                   brand name products (budesonide and levalbuterol) was much greater
                   in South Florida than in the rest of the country, while spending on
                   generic products (albuterol and ipratropium bromide) was similar to the
                   rest of the country. Among beneficiaries with paid budesonide claims in
                   2007, the average Medicare spending on the drug in South Florida was
                   $4,429 per beneficiary compared to $1,567 per beneficiary in the rest of
                   the country. In the first half of 2007 (before a coding change took effect
                   on July 1), Medicare’s spending on levalbuterol per beneficiary in South
                   Florida was $2,312 as compared to $1,035 per beneficiary in the rest of
                   the country. In 2007, 56 percent of South Florida beneficiaries who


 OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   ii
E X E C U T I V E                       S U          M M A R Y


                   received inhalation drugs had claims paid for budesonide, compared to
                   14 percent of beneficiaries in the rest of the country.

                   Supplier billing patterns for inhalation drugs differed substantially
                   between South Florida and the rest of the country. Beneficiaries in
                   South Florida were more likely to have multiple suppliers. Thirty-one
                   percent of South Florida beneficiaries had more than one supplier
                   providing inhalation drugs during 2007, as compared to 12 percent of
                   beneficiaries in the rest of the country. Beneficiaries with claims for
                   budesonide were particularly likely to have more than one supplier of
                   the drug. In 2007, an average of 27 percent of beneficiaries with
                   budesonide claims in South Florida had multiple suppliers in the first
                   half of the year, as compared to 9 percent of beneficiaries in the rest of
                   the country.

                   Overall, suppliers billed Medicare an average of $1,176 in inhalation
                   drug claims for each of their South Florida beneficiaries in 2007; on
                   average, they were paid $585 for each beneficiary that year. In the rest
                   of the country, suppliers billed Medicare an average of $661 per
                   beneficiary for inhalation drugs in 2007 and were paid $307.
                   Medicare paid for inhalation drug claims that did not comply with
                   LCD guidelines. The average Medicare payment for a 90-day supply of
                   budesonide in South Florida was more than double the payment amount
                   for the maximum milligrams listed in the LCD. Seventy-five percent of
                   South Florida beneficiaries who received budesonide had
                   Medicare-reimbursed budesonide claims that exceeded the utilization
                   guidelines, compared to 14 percent in the rest of the country. Although
                   the average payment for the other inhalation drugs fell within the
                   guidelines set by the LCD, several individual South Florida
                   beneficiaries still exceeded the maximum payment amount for a 90-day
                   supply of the other drugs.
                   For 62 percent of inhalation drug claims in South Florida, the
                   beneficiary did not have a Part B service visit during the last 3 years
                   with the physician who reportedly prescribed the drug. According to
                   Medicare data, for 62 percent of South Florida inhalation drug claims,
                   the beneficiaries on these claims did not have a Medicare-billed office
                   visit or other service in 2005, 2006, or 2007 with the physician who
                   reportedly prescribed the drug. Medicare paid $114 million (71 percent
                   of total South Florida payments) for these inhalation drug claims in
                   2007. For 16 percent of suppliers, not a single South Florida beneficiary



 OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   iii
E X E C U T I V E                       S U          M M A R Y


                   to whom they provided inhalation drugs had a billed claim with the
                   physician listed on the claim form.
                   Certain ordering physicians in South Florida were associated with
                   a large volume of inhalation drug claims. In 2007, 10 South Florida
                   physicians were each listed as the ordering physician on more than
                   $3.3 million in submitted inhalation drug claims. Each of the
                   10 physicians reportedly ordered inhalation drugs for an average of
                   745 South Florida beneficiaries in 2007. These physicians had
                   Medicare-paid office visits in 2005 through 2007 with between
                   1 percent and 53 percent of the beneficiaries for whom they reportedly
                   ordered inhalation drugs for in 2007. Medicare paid a total of
                   $28 million for inhalation drugs reportedly ordered by these
                   10 physicians during the year.


                   RECOMMENDATIONS
                   South Florida has been identified by the Office of Inspector General
                   (OIG), CMS, and other agencies as a high-risk area for fraudulent
                   billings to Medicare by DME suppliers. Fraudulent billings jeopardize
                   the financial integrity of Medicare and may endanger Medicare
                   beneficiaries when the drugs are overprescribed.

                   Our findings demonstrate that even though CMS has made efforts to
                   reduce DME fraud in South Florida, a problem may persist among DME
                   suppliers billing for inhalation drugs. Medicare spent substantially
                   more on inhalation drugs per beneficiary in South Florida during 2007
                   than it did among beneficiaries in the rest of the country. The greatest
                   spending discrepancies occurred among the brand name drugs
                   budesonide and levalbuterol. In particular, spending and utilization for
                   budesonide were much higher not only in comparison to averages in the
                   rest of the country but also in relation to coverage guidelines.
                   Furthermore, many of the South Florida beneficiaries did not have a
                   Medicare service claim during the last 3 years with the physician who
                   reportedly prescribed the inhalation drugs. Therefore, we recommend
                   that CMS:

                   Ensure That All PSCs, Particularly the PSC Covering Florida, Are
                   Enforcing the Guidelines for Maximum Milligrams per Month for All
                   Inhalation Drugs, Especially Budesonide.

                   Eliminate Medicare’s Vulnerability to Potentially Fraudulent or
                   Excessive Claims for Beneficiaries Prescribed Inhalation Drugs in
                   South Florida.

 OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   iv
E X E C U T I V E                       S U          M M A R Y


                   Review Cases in Which the DME Supplier Appears To Be Fraudulently
                   Billing Medicare for Inhalation Drugs and Take Appropriate Action
                   Based on the Review’s Results.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with all three of our recommendations. CMS stated
                   that through its Program Integrity Miami field office and the DME Stop
                   Gap Plan, it has already identified and begun to address many of the
                   same issues cited in our report. In addition, CMS noted that OIG’s
                   findings reinforce the validity of the agency’s efforts.
                   In response to our recommendations, CMS stated that, as of September
                   2008, the DME PSC for South Florida and the DME MAC had
                   implemented a “medically unlikely” edit for budesonide. According to
                   CMS, there was an immediate and significant 50-percent decrease in
                   both allowed and billed amounts for the drug in Miami-Dade and
                   Broward counties. In addition, CMS described the efforts by its Miami
                   and Los Angeles field offices to identify suppliers whose beneficiaries
                   had no clinical relationship with the physicians listed on DME claims,
                   and revoke the Medicare billing numbers for suppliers not meeting
                   supplier standards. Finally, CMS expressed its commitment to
                   continually reviewing and refining the process to improve the Medicare
                   program and will review any additional information provided by OIG.
                   We did not make any changes to the final report based on CMS’s
                   comments.




 OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   v
Δ   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .................................... i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                    Spending on South Florida beneficiaries was disproportionate . . 11

                    Supplier billing patterns differed . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                    Medicare paid for claims that did not comply with the LCD. . . . . 14

                    Beneficiaries did not have Part B service claims . . . . . . . . . . . . . . 16

                    Certain physicians were associated with large volumes of
                    inhalation drug claims . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
                    Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    A: Calculation for Local Coverage Determination Guideline
                       Comparison . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                    B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
Δ   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To compare Medicare utilization and spending for inhalation
                     drugs among beneficiaries in South Florida to utilization and
                     spending among beneficiaries in the rest of the country.

                  2. To compare Medicare supplier billings for inhalation drugs in
                     South Florida to Medicare supplier billings in the rest of the
                     country.

                  3. To compare beneficiary utilization of inhalation drugs (in South
                     Florida and the rest of the country) to utilization guidelines set by
                     the Medicare program.

                  4. To examine relationships between inhalation drug suppliers,
                     prescribing physicians, and Medicare beneficiaries in South
                     Florida.


                  BACKGROUND
                  Medicare Part B Coverage of Inhalation Drugs
                  Although Medicare Part D covers most outpatient prescription drugs,
                  the Centers for Medicare & Medicaid Services (CMS) continues to cover
                  a limited number of prescription drugs and biologicals (hereinafter
                  referred to as drugs) under its Part B benefit. These drugs generally
                  fall into three categories: drugs furnished incident to a physician’s
                  service, drugs explicitly covered by statute, and drugs administered
                  through durable medical equipment (DME). 1
                  Inhalation drugs administered via a nebulizer, a class of DME drug, are
                  provided to Medicare beneficiaries by DME suppliers. Physicians
                  typically prescribe these drugs to treat and prevent symptoms
                  associated with lung diseases, such as asthma and chronic obstructive
                  pulmonary disorder. Long term use is usually required because
                  inhalation drugs are often used to treat incurable and lifelong diseases.
                  In 2007, four products (albuterol, levalbuterol, budesonide, and
                  ipratropium bromide) accounted for 72 percent of the $946 million
                  Medicare spent on inhalation drugs nationally and 95 percent of the
                  $160 million spent in South Florida.




                      1 68 Fed. Reg. 50428, 50429 (Aug. 20, 2003).




OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   1
I N T R O D        U C T            I O N


                    CMS contracts with four geographically defined DME Medicare
                    Administrative Contractors (MAC) to process and pay for DME claims,
                    including those for inhalation drugs. 2 For an inhalation drug claim to
                    be eligible for Medicare reimbursement, the DME supplier must have a
                    signed prescription from the treating physician and the physician’s
                    identification number must be listed on the submitted claim form.
                    Generally, Medicare will pay 80 percent of the authorized
                    reimbursement amount to the DME supplier providing the inhalation
                    drug; the beneficiary is responsible for the remaining 20 percent in the
                    form of coinsurance.

                    CMS contracts with Program Safeguard Contractors (PSC) 3 to perform
                    benefit integrity and medical review functions for each of the four DME
                    MAC jurisdictions. 4 Benefit integrity functions include fraud
                    investigations; data analysis; and prepay and postpay medical reviews
                    of claims involving potential fraud, waste, and abuse. Before
                    March 1, 2008, the PSCs also conducted medical reviews for purposes
                    other than benefit integrity, such as performing comprehensive error
                    rate testing, educating suppliers, and making coverage determinations.
                    However, effective March 1, 2008, CMS transferred the responsibility
                    for these types of medical reviews from the PSCs to the DME MACs.
                    DME Coverage Determinations
                    CMS may establish national coverage determinations for DME items
                    (including inhalation drugs) and has typically based those
                    determinations on statutory guidelines found in section 1862(a)(1) of the
                    Social Security Act. National coverage determinations specify whether
                    certain medical items, services, treatment procedures, or technologies
                    are eligible for Medicare payment. The DME MACs and PSCs are
                    required to follow national coverage determinations when they exist.

                       2 The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 requires

                    CMS to implement competitive procedures to replace DME regional carriers with DME
                    MACs. In 2006, CMS competitively selected four DME MACs and began to transition
                    claims administration activities from DME regional carriers to DME MACs. As of
                    June 1, 2007, the four DME MACs awarded contracts were the National Heritage Insurance
                    Company for Jurisdiction A; AdminaStar Federal, Inc., for Jurisdiction B; CIGNA
                    Government Service, LLC, for Jurisdiction C (Florida is 1 of 15 States and 2 U.S. territories
                    included in Jurisdiction C); and Noridian Administrative Services for Jurisdiction D.
                        3 Social Security Act § 1893(a), 42 U.S.C. § 1395ddd.
                        4 Each DME MAC is responsible for coordinating with the PSC that conducts program
                    integrity reviews in the DME MAC’s jurisdiction. The PSC for Jurisdictions A and B is
                    TriCenturion; the PSC for Jurisdiction C is TrustSolutions, LLC; and the PSC for
                    Jurisdiction D is Electronic Data Systems.



 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   2
I N T R O D        U C T            I O N


                    However, when a national coverage determination does not exist or
                    when there is a need for further definition, Medicare contactors may
                    establish a local coverage determination (LCD). An LCD defines
                    coverage criteria, payment rules, and documentation requirements that
                    will be applied to claims processed by the individual Medicare
                    contractors. Because many DME suppliers operate nationally, CMS
                    requires that LCDs involving DME items (including inhalation drugs)
                    be identical among all four DME MACs.

                    Effective March 1, 2008, DME MACs have full responsibility for
                    developing and revising LCDs. Before that date, the PSCs developed
                    the LCDs and submitted them to the DME MACs (or their predecessors,
                    the DME regional carriers) for approval. The DME MACs reviewed the
                    recommended LCDs and determined whether they would be adopted or
                    rejected.

                    One PSC established an LCD (L5007), effective April 1997, that set
                    guidelines for the maximum milligrams per month that may reasonably
                    be billed for certain inhalation drugs. The LCD states that a claim will
                    be denied if it does not follow these guidelines unless there is
                    documentation in the patient’s medical records to support medical
                    necessity. As required by CMS, the LCD is effective nationally,
                    meaning that it applies to inhalation drug claims in all four DME MAC
                    jurisdictions. Numerous revisions have been made to the LCD since its
                    establishment. For example, as part of the July 1, 2007, revision, a
                    maximum milligrams guideline for budesonide was included in the
                    LCD. 5
                    The maximum milligrams listed in this LCD are typically much higher
                    than the normally prescribed dose. For example, the LCD lists the
                    maximum milligrams for levalbuterol as up to 232.5 milligrams per
                    month. However, the package insert for levalbuterol states that
                    patients receiving the highest dosage (112.5 milligrams per month)
                    should be monitored closely for adverse side effects (e.g., seizures,
                    tachycardia, cardiac arrest). 6



                        5 The maximum milligrams per month listed in the LCD for the four inhalation drugs
                    that account for the majority of Medicare inhalation drug payments are: up to
                    465 milligrams for albuterol, up to 232.5 milligrams for levalbuterol, up to 93 milligrams for
                    ipratropium bromide, and up to 31 milligrams for budesonide (effective July 1, 2007).
                      6 Levalbuterol package insert. Available online at http://www.xopenex.com. Accessed on
                    September 2, 2008.



 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   3
I N T R O D        U C T                I O N

                  According to staff at the DME MAC that includes Florida, automated
                  edits have been implemented for most of the inhalation drugs covered
                  by the LCD. These edits detect whether the beneficiary’s utilization of
                  an 83-day supply of the drug exceeds the LCD’s maximum milligrams
                  parameters for a 3-month period and, if so, suspends payment until the
                  claim can be reviewed manually. 7 Although budesonide was included in
                  the LCD as of July 1, 2007, as of August 18, 2008, the PSC for
                  Jurisdiction C (the region including Florida) has yet to establish edits
                  that will enable the DME MAC to monitor this drug’s utilization.
                  Medicare Enrollment of DME Suppliers
                  Before a DME supplier may bill Medicare, it must obtain a National
                  Provider Identifier (NPI), which is a unique identifier for health care
                  providers that is assigned by the National Plan and Provider
                  Enumeration System. After obtaining the NPI, the DME applicant
                  must submit a completed application form (Form CMS-855S) and
                  supporting documents to CMS. The forms contain information about
                  the applicant (e.g., adverse legal actions and convictions); the supplier’s
                  practice location; the names of organizations or individuals having
                  ownership or managing control of the business; and the billing agent for
                  the supplier, if one exists. By signing and submitting the application
                  forms, the DME applicant agrees to follow all Medicare laws,
                  regulations, and program instructions. Additionally, the DME
                  applicant must meet certain Medicare supplier standards. 8
                  CMS contracts with the National Supplier Clearinghouse (NSC),
                  operated by Palmetto Government Benefit Administrators, to manage
                  the enrollment of suppliers. To ensure that an applicant is meeting the
                  Medicare supplier standards, NSC must conduct an unannounced site
                  visit while the application is being processed. Generally, if the supplier
                  is not in compliance, NSC will deny the application.

                  DME suppliers are required to reenroll in the Medicare program every
                  3 years to continue receiving Medicare payment. 9 The reenrollment
                  process requires a resubmission of the CMS-855S application form and
                  the required documentation. NSC conducts an unannounced



                      7 The edit is based on an 83-day period (7-day grace period for delivery) because a

                  supplier may bill for up to a 90-day supply of the drug.
                      8 42 CFR § 424.57(c).
                      9 42 CFR § 424.57(e).




OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   4
I N T R O D        U C T            I O N


                    reenrollment site visit to ensure that the supplier continues to meet
                    Medicare standards.
                    Medicare DME Fraud in South Florida
                    On March 1, 2007, a multiagency task force of Federal, State, and local
                    investigators began operating in South Florida to detect, prosecute, and
                    prevent Medicare fraud by area DME suppliers. Medicare beneficiaries
                    and physicians often play a key role in the suppliers’ efforts to bill
                    Medicare for unnecessary items. The task force found that one method
                    used to defraud Medicare involved DME suppliers paying physicians for
                    writing fraudulent inhalation drug prescriptions and paying Medicare
                    beneficiaries for accepting the unnecessary medication. In these cases,
                    beneficiaries typically received around $100 to $150 per month for use
                    of their Medicare cards. In multiple cases, beneficiaries testified that
                    they did not use, but instead threw away, the inhalation drugs they
                    received. 10 DME suppliers have testified that the medication billed to
                    Medicare was illegally manufactured in shell pharmacies that did not
                    stock real medications and did not have customers. 11
                    However, beneficiaries and physicians are not always aware that the
                    DME suppliers are using their identification numbers for fraudulent
                    activities. Sometimes, DME suppliers fraudulently obtain beneficiary
                    identification information to submit DME claims for Medicare
                    beneficiaries who did not see the ordering physician and never received
                    the item submitted on the claim. 12 DME suppliers have also used a
                    physician’s identification number without the physician’s consent or




                        10 Department of Justice Press Release. “Medicare Fraud Strike Force Convicts Owner
                    of Miami Durable Medical Equipment Company of Defrauding Medicare.” Available online
                    at http://www.usdoj.gov/opa/pr/2007/June/07_crm_472.html. Accessed on
                    December 18, 2007. Department of Justice Press Release. “Miami Jury Convicts Physician
                    and Three Business Owners of Medicare Fraud.” Available online at
                    http://miami.fbi.gov/dojpressrel/pressrel08/medfraud030708.htm. Accessed on
                    April 15, 2008.
                       11 Ibid. Illegally manufactured drugs included inhalation drugs compounded by
                    untrained individuals without pharmacy licenses. Compounding is the process in which a
                    pharmacist mixes medications such as albuterol and ipratropium bromide in the pharmacy,
                    instead of purchasing the premixed form directly from a manufacturer or wholesaler.
                        12 Department of Justice Press Release. “Miami-Dade DME and Clinic Owners Indicted
                    for Using Stolen Patient Information in Multi-million Dollar Medicare Fraud Scheme.”
                    Available online at http://miami.fbi.gov/dojpressrel/pressrel08/mm20080401.htm. Accessed
                    on October 1, 2008.



 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   5
  I N T R O D           U C T                I O N

                  knowledge. 13 According to CMS staff, a project began in November
                  2006 to minimize the improper use of physician identification numbers
                  on claims for all DME items. This project identifies potentially
                  compromised physician identification numbers and allows physicians to
                  request that claims for either specific DME items or a category of DME
                  be denied.
                  Medicare Demonstration Project in South Florida
                  Section 402(a)(1)(J) of the Social Security Amendments of 1967 permits
                  the Secretary of the Department of Health and Human Services to
                  develop or demonstrate improved methods for the investigation and
                  prosecution of fraud in the provision of care or services under the health
                  programs established by the Social Security Act. 14 Pursuant to this
                  authority, on November 1, 2007, CMS implemented a 2-year
                  demonstration project, targeting the South Florida and Los Angeles
                  metropolitan areas, to improve its ability to detect potentially
                  fraudulent behavior among DME suppliers at both the preenrollment
                  and postenrollment stages. This demonstration project consists of three
                  components: (1) suppliers submit a CMS-855S Medicare enrollment
                  application; (2) CMS revokes billing privileges if the supplier meets
                  certain criteria (e.g., if the DME supplier fails to submit a CMS-855S
                  within 30 days); and (3) CMS performs enhanced reviews of DME
                  suppliers that were not revoked based on components one or two.
                  Related Work
                  A January 2007 Government Accountability Office (GAO) report
                  examined the PSCs’ efforts to prevent and minimize improper DME
                  payments, as well as CMS’s oversight of the PSCs’ program integrity
                  activities. 15 GAO found that PSCs did not have automated prepayment
                  controls to identify claims associated with atypical billing patterns and
                  claims that were medically improbable. GAO recommended that CMS
                  require PSCs to develop thresholds for unexplained increases in billing
                  and use them to develop automated prepayment controls and to share
                  these with other PSCs. CMS agreed with the report’s findings and



                    13 Department of Justice Press Release. “DME Operators Charged in Health Care Fraud
                  and Identity Theft Conspiracy.” Available online at
                  http://www.usdoj.gov/usao/fls/PressReleases/071205-01.html. Accessed on October 2, 2008.
                      14 42 U.S.C. § 1395b-1(a)(1)(J).
                      15 GAO Report. “Medicare: Improvements Needed to Address Improper Payments for
                  Medical Equipment and Supplies,” GAO-07-59 (January 31, 2007).



OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   6
I N T R O D        U C T            I O N


                    responded that it had begun further automating its claims payment
                    systems to prevent improper payments.

                    In March 2007, the Office of Inspector General (OIG) issued the report
                    “South Florida Suppliers’ Compliance With Medicare Standards:
                    Results From Unannounced Visits” (OEI-03-07-00150). OIG made
                    1,581 unannounced site visits in late 2006 to DME suppliers in South
                    Florida. We found that 491 suppliers (31 percent) did not maintain
                    physical facilities or were not open and staffed during business hours.
                    At the time we conducted the visits, these 491 suppliers had billed
                    Medicare for almost $237 million in 2006. We recommended that CMS
                    strengthen the supplier enrollment process and ensure that suppliers
                    meet Medicare supplier standards. In response, CMS stated that it
                    would take several steps to strengthen supplier standards.

                    In September 2007, OIG issued a report entitled “Aberrant Billing in
                    South Florida for Beneficiaries With HIV/AIDS” (OEI-09-07-00030).
                    This study analyzed claim patterns associated with HIV/AIDS infusion
                    therapy providers in South Florida and the oversight mechanisms CMS
                    has in place to control inappropriate payments to these providers. In
                    the last half of 2006, South Florida accounted for 79 percent of the
                    amount of drugs billed nationally for Medicare beneficiaries with
                    HIV/AIDS, even though only about 10 percent of Medicare beneficiaries
                    with HIV/AIDS lived there. Based on our review of CMS materials and
                    claims data, we found that CMS and its contractors have used multiple
                    approaches in South Florida to control aberrant billing for beneficiaries
                    with HIV/AIDS, but none has proven effective thus far.

                    In February 2008, OIG issued a report entitled “Los Angeles County
                    Suppliers’ Compliance With Medicare Standards: Results From
                    Unannounced Visits” (OEI-09-07-00550). OIG conducted unannounced
                    site visits to 905 DME suppliers in the Los Angeles metropolitan area to
                    determine their compliance with certain Medicare standards and to
                    identify atypical billing characteristics. Thirteen percent of the
                    suppliers did not maintain physical facilities or were not open during
                    the time of the site visits. Fourteen percent of suppliers met a Medicare
                    standard but had atypical billing patterns, such as billing for a
                    beneficiary that did not receive other Medicare services (e.g., office
                    visits) from the ordering physician within a 6-month period preceding
                    the DME claim. We recommended that CMS strengthen the DME
                    supplier enrollment process and ensure that these suppliers meet the
                    Medicare standards. In response, CMS stated that it has already


 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   7
I N T R O D        U C T            I O N


                    addressed the majority of our recommendations but would consider
                    increasing prepayment reviews of suppliers’ claims and may establish
                    more frequent enrollment requirements for suppliers.


                    METHODOLOGY
                    Scope and Data Source
                    We used the Medicare National Claims History File (NCH) to identify
                    all inhalation drug claims in 2007. Using county codes, we separated
                    the claims into two groups: one with beneficiaries in South Florida
                    (defined as Miami-Dade, Broward, and Palm Beach Counties) and one
                    with beneficiaries in the rest of the country. We also used the NCH to
                    identify all claims for Part B physician services provided between
                    January 1, 2005, and December 31, 2007, for South Florida
                    beneficiaries who received inhalation drugs under Medicare.
                    Data Analysis
                    Beneficiary comparison. We calculated the average number of paid
                    claims and amounts allowed 16 for all inhalation drugs per beneficiary
                    in South Florida in 2007 and compared these to average values for the
                    rest of the country. We also performed this comparison for the four
                    individual products (albuterol, levalbuterol, ipratropium bromide, and
                    budesonide) that accounted for most (95 percent) of Medicare
                    spending on inhalation drugs in South Florida. 17 Among these four
                    products, budesonide and levalbuterol are brand name products
                    marketed by a single manufacturer; albuterol and ipratropium
                    bromide have generic versions available from numerous
                    manufacturers.
                    Supplier comparison. We compared the average amount submitted and
                    paid per supplier for beneficiaries in South Florida to the average
                    amount submitted and paid per supplier for beneficiaries in the rest
                    of the country. Additionally, we determined the percentage of


                        16 In the remainder of this report, calculations involving the amount allowed (total
                    amount Medicare spent, including the beneficiary copayment) are referred to as either the
                    amount Medicare spent or paid.
                      17 The four inhalation drugs under review were actually represented by five Healthcare
                    Common Procedures Coding System (HCPCS) codes on Medicare claims during 2007. In
                    the first half of 2007, albuterol and levalbuterol had separate HCPCS codes. However, in
                    the second half of 2007 these drugs were combined into one new HCPCS code. We focused
                    the analysis involving these two drugs on the first half of 2007, when the drugs had
                    separate HCPCS codes.



 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   8
I N T R O D        U C T            I O N


                    beneficiaries in South Florida and in the rest of the country who had
                    more than one supplier providing inhalation drugs in 2007.
                    LCD guideline comparison. An LCD (L5007) provides guidelines for the
                    maximum milligrams per month that may reasonably be billed
                    (without additional documentation) for the majority of the inhalation
                    drugs covered by Medicare. We compared actual beneficiary
                    utilization to guidelines in the LCD for the four drug products
                    (albuterol, levalbuterol, ipratropium bromide, and budesonide)
                    included in the beneficiary comparison.

                    The maximum doses listed in the LCD for albuterol, levalbuterol, and
                    ipratropium bromide were consistent throughout 2007. However,
                    budesonide did not have a maximum milligrams per month listed in
                    the LCD before its July 1, 2007, revision. Therefore, our analysis of
                    this drug (in terms of the LCD) was limited to the second half of 2007.
                    Additionally, the HCPCS codes, and subsequently the Medicare
                    payment amount, for levalbuterol and albuterol were combined as of
                    July 1, 2007 (although the maximum doses for each remained the
                    same). As a result, it was not possible to differentiate between
                    albuterol and levalbuterol billed on claims during the second half of
                    2007. Because of this, we analyzed albuterol and levalbuterol claims
                    for only the first half of 2007.

                    Because beneficiaries may receive up to a 90-day supply of a drug,
                    edits for the utilization guidelines were set for an 83-day period
                    (excluding a 7-day grace period for delivery). For each of the four
                    drugs included in the LCD analysis, we calculated the average
                    Medicare payment per beneficiary for an 83-day period. We
                    calculated these amounts for beneficiaries in South Florida and the
                    rest of the country and compared them to the Medicare payment
                    amount that reflected the maximum milligrams listed in the LCD for
                    3 months (i.e., 90 days). We also calculated the percentage of South
                    Florida beneficiaries exceeding the utilization guidelines within the
                    83-day period and compared it to the percentage exceeding it in the
                    rest of the country. Please refer to the Appendix for a more detailed
                    description of this analysis.
                    Relationships among suppliers, physicians, and beneficiaries. For each
                    South Florida beneficiary with a paid inhalation drug claim in 2007,
                    we determined whether or not there was a Medicare Part B service
                    claim (e.g., Medicare-billed office visit) occurring in 2005, 2006, or
                    2007 with the physician who ordered the inhalation drug. In

 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   9
I N T R O D        U C T            I O N


                    addition, for each supplier, we determined the percentage of South
                    Florida beneficiaries with paid inhalation drug claims that did not
                    have Part B service claims in 2005 through 2007 with the ordering
                    physician listed on the inhalation drug claim.

                    Using the physician’s identifier, we selected the 10 prescribing
                    physicians associated with the highest dollar amount of South Florida
                    inhalation drug claims submitted in 2007. We then determined
                    whether there are certain suppliers operating in South Florida that
                    had large volumes of claims with any of the high-dollar physicians.
                    Limitations
                    The Health Insurance Portability and Accountability Act of 1996
                    requires issuance of a unique NPI to each physician, supplier, and other
                    health care provider. CMS began issuing NPIs on May 23, 2005;
                    however, it was not until May 23, 2008, that all submitted claims were
                    required to have an NPI. In the interim, CMS allowed submitted claims
                    to have either the NPI only; the Medicare legacy identifier only
                    (i.e., Unique Physician Identification Number); or a combination of the
                    NPI and Medicare legacy identifier on the claim. For calculations in
                    this report involving Part B service claims, we excluded claims for
                    which only an NPI was present; i.e., we included only claims that listed
                    a legacy identifier. In South Florida, these NPI-only claims accounted
                    for less than 1 percent of the total amount submitted to Medicare and of
                    the total amount Medicare paid for inhalation drugs.

                    We did not examine medical records to verify whether there was
                    documentation to support claims for a drug that exceeded the maximum
                    milligrams per month listed in the LCD.
                    Standards
                    This study was conducted in accordance with the “Quality Standards
                    for Inspections” issued by the President’s Council on Integrity and
                    Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-08-00290    A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   10
Δ      F I N D I N G S

          Although only 2 percent of Medicare                       In 2007, South Florida accounted
   beneficiaries live in South Florida, this area                   for 17 percent of the total
                                                                    Medicare reimbursement for
accounted for 17 percent of Medicare spending
                                                                    inhalation drugs ($160 million of
                    on inhalation drugs in 2007
                                                                    $946 million), even though just
                             2 percent of beneficiaries resided there. 18 Medicare paid almost
                             $143 million for inhalation drugs in Miami-Dade County alone—an
                             amount 20 times greater than the amount paid in Cook County, Illinois,
                             the county (outside South Florida) with the next highest total
                             payments. However, according to Medicare enrollment data, Cook
                             County is home to almost twice as many Medicare beneficiaries as
                             Miami-Dade County.

                             In 2007, Medicare’s average per-beneficiary spending on inhalation drugs
                             was five times higher in South Florida than in the rest of the country
                             Among beneficiaries with paid inhalation drug claims, Medicare spent
                             approximately $4,400 per South Florida beneficiary on those drugs in
                             2007. In the rest of the country, Medicare spent $815 per beneficiary on
                             inhalation drugs that year (see Table 1). For 53 percent of the South
                             Florida beneficiaries, Medicare spending for inhalation drugs was
                             greater than $2,000 each in 2007. In comparison, just 11 percent of
                             beneficiaries in the rest of the country exceeded that amount. For
                             10 South Florida beneficiaries, Medicare paid an average of $44,000 for
                             inhalation drugs in 2007, an amount 54 times higher than the average
                             per-beneficiary payment outside South Florida. These 10 beneficiaries
                             had an average of more than $72,000 in submitted inhalation drug
                             claims in 2007.

          Table 1. Inhalation Drug Claims in 2007 (per beneficiary)
                                                                                   South Florida                                    Rest of the Country
                                                                       Average                    Average Amount                    Average         Average
                                                                  Number of Paid                            Paid                  Number of      Amount Paid
                                                                         Claims                                                  Paid Claims

          Inhalation drug claims for Medicare                                       10.2                           $4,377                6.5              $815
          beneficiaries in 2007*

        * Limited to beneficiaries with paid inhalation drug claims.
         Source: OIG analysis of inhalation drug claims in the Medicare NCH file, 2007.



                                 18 CMS Medicare Enrollment Reports. Available online at
                             https://www.cms.hhs.gov/MedicareEnrpts/. Accessed on October 21, 2008. Enrollment data
                             have not been updated since July 1, 2007; therefore, this estimate assumes that Medicare
                             enrollment did not change significantly after July 1, 2007.



   OEI-03-08-00290           A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA                            11
             F    I N D I N G                  S


                                             Medicare per-beneficiary spending on brand name inhalation drugs was
                                             much greater in South Florida than in the rest of the country; spending
                                             on generic inhalation drugs was similar
                                             For the four inhalation drugs that accounted for the majority of
                                             spending, Medicare spent substantially more per beneficiary on the
                                             brand name products (budesonide and levalbuterol) in South Florida
                                             compared to the amount spent in the rest of the country. As Table 2
                                             illustrates, among those who received budesonide in 2007, Medicare’s
                                             per-beneficiary spending for the drug was much higher in South Florida
                                             ($4,429 per beneficiary in South Florida compared to $1,567 per
                                             beneficiary in the rest of the country). In addition, in the first half of
                                             2007 (before the HCPCS coding change), Medicare’s per-beneficiary
                                             spending on levalbuterol in South Florida was more than double its
                                             spending in the rest of the country ($2,312 per beneficiary in South
                                             Florida compared to $1,035 per beneficiary in the rest of the country).
                                             At the same time, per-beneficiary payments for the two generic
                                             inhalation drugs (albuterol and ipratropium bromide) were roughly the
                                             same or less in South Florida.

  Table 2. Paid Inhalation Drug Claims for Individual Drug Products in 2007


                                                                          South Florida                                                          Rest of the Country


                                                    Percentage of                  Average                     Average               Percentage of        Average      Average
                                                     Beneficiaries               Number of                     Amount                 Beneficiaries     Number of      Amount
  Short Description of Drugs                       Receiving Drug               Paid Claims                       Paid              Receiving Drug     Paid Claims        Paid
  Budesonide inhalation solution (unit                                                                           $4,429
                                                                       56                      6.6                                                14           5.1      $1,567
  dose), up to 0.5 mg

  Levalbuterol inhalation solution (unit                               71                      4.1               $2,312                                                 $1,035
                                                                                                                                                  19           2.7
  dose), 0.5 mg*

  Albuterol inhalation solution                                        17                      2.1                     $37                        40           2.7          $50
  (unit dose), 1 mg*

  Ipratropium bromide inhalation                                                                                       $46
                                                                       29                      3.3                                                23           3.8          $43
  solution (unit dose), 1 mg

* The amounts listed for albuterol and levalbuterol are for the first half of 2007, when they had separate HCPCS codes.
 Calculations for individual drugs are based only on the beneficiaries who were provided those drugs. Therefore, the figures listed in this
 table do not add up to the figures listed for all inhalation drugs per beneficiary in Table 1.

 Source: OIG analysis of inhalation drug claims in the Medicare NCH file, 2007.




                 OEI-03-08-00290             A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA                         12
F   I N D I N G        S


                      Furthermore, not only did Medicare spend more per beneficiary on brand
                      name drugs in South Florida, but also substantially more South Florida
                      beneficiaries had claims for brand name drugs. In 2007, 56 percent of
                      South Florida beneficiaries who received inhalation drugs had
                      Medicare-paid claims for budesonide, compared to 14 percent of
                      beneficiaries who received inhalation drugs in the rest of the country.
                      Before the HCPCS coding change, 71 percent of these South Florida
                      beneficiaries had paid claims for levalbuterol, versus just 19 percent of
                      these beneficiaries elsewhere.

                      As a result, Medicare’s total expenditures for budesonide and levalbuterol
                      were disproportionately higher in South Florida. Medicare spent
                      $306 million for budesonide in 2007; 30 percent ($91 million) of this was
                      attributed to budesonide payments in South Florida. Similarly, Medicare
                      spent $205 million on levalbuterol in the first half of 2007 (before the
                      HCPCS coding change), with South Florida accounting for 25 percent
                      ($51 million) of that total.

                      Because Medicare payment amounts were substantially higher for
                      budesonide and levalbuterol (before the HCPCS coding change) than the
                      two generic drugs, suppliers may have had a greater incentive to overbill
                      for the brand name products. 19 Budesonide had the highest
                      reimbursement amount among the products we reviewed.

    Supplier billing patterns for inhalation drugs           Consistent with the substantial
    differed substantially between South Florida             differences in inhalation drug
                                                             utilization and expenditures
                       and the rest of the country
                                                             between beneficiaries in South
                      Florida and those in the rest of the country, the suppliers that provided
                      drugs in South Florida exhibited different billing patterns as well. Not
                      only did suppliers bill more per beneficiary for inhalation drugs in
                      South Florida when compared to amounts billed in the rest of the
                      country, but also in many cases, multiple suppliers billed for inhalation
                      drugs provided to the same beneficiary.




                          19 In 2007, the average Medicare payment amount for one vial of budesonide was $4.67;
                      levalbuterol was $3.66; albuterol was $0.18; and ipratropium bromide was $0.10. After
                      Medicare combined the payment amounts for levalbuterol and albuterol, one vial of either
                      drug was reimbursed at $1.18.



    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   13
F    I N D I N G       S


                      Beneficiaries in South Florida were more likely to have multiple suppliers
                      Thirty-one percent of South Florida beneficiaries had more than one
                      supplier providing inhalation drugs during 2007. Thirty-five percent
                      of the multiple-supplier beneficiaries received drugs from three or
                      more suppliers, often for the same drug in the same month. For
                      example, one beneficiary received levalbuterol and budesonide from
                      12 different suppliers in 2007, with as many as 6 suppliers each
                      providing both drugs in a single month. In comparison, only
                      12 percent of beneficiaries in the rest of the country had claims
                      submitted from more than one supplier, with almost all of these
                      (91 percent) receiving drugs from just two.

                      Beneficiaries with claims for budesonide were particularly likely to have
                      more than one supplier of the drug. In the first half of 2007, an average
                      of 27 percent of beneficiaries with budesonide claims in South Florida
                      had multiple suppliers providing budesonide compared to 9 percent of
                      beneficiaries in the rest of the country (budesonide’s average payment
                      amount per vial was $4.67 in 2007). In contrast, in the first half of
                      2007, 4 percent of South Florida beneficiaries and 7 percent of
                      beneficiaries in the rest of the country had more than one supplier of
                      albuterol (albuterol’s average payment amount was $0.18 per vial).
                      Inhalation drug suppliers billed more for beneficiaries in South Florida
                      than in the rest of the country
                      Overall, suppliers billed Medicare an average of $1,176 in inhalation
                      drug claims for each of their South Florida beneficiaries in 2007; on
                      average, they were paid $585 for each beneficiary that year. In the rest
                      of the country, suppliers billed Medicare an average of $661 per
                      beneficiary for inhalation drugs in 2007 and were paid $307. One
                      supplier in South Florida was paid an average of $14,000 per
                      beneficiary for inhalation drugs in 2007—an amount 46 times the
                      average for the rest of the country.


    Medicare paid for inhalation drug claims that          Effective July 1, 2007,
            did not comply with LCD guidelines             utilization guidelines for
                                                           budesonide were included on
                      LCD L5007. However, as of September 2008, the PSC covering
                      Florida had not implemented edits to deny budesonide claims in




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   14
      F   I N D I N G                  S


                                     excess of the LCD amount. 20 As Table 3 shows, the average Medicare
                                     payment for a 90-day supply 21 of budesonide in South Florida
                                     ($1,874 per beneficiary) was more than double the payment amount
                                     for the maximum milligrams listed in the LCD ($888 per beneficiary)
                                     during the second half of 2007; in the rest of the country, the average
                                     payment for budesonide was lower than the LCD guideline
                                     ($746 per beneficiary). Seventy-five percent of South Florida
                                     beneficiaries who received budesonide had paid claims that exceeded
                                     the utilization guidelines, compared to 14 percent of beneficiaries in
                                     the rest of the country. In the case of one South Florida beneficiary,
                                     Medicare paid for a 90-day supply of budesonide that was 15 times
                                     greater than the maximum listed in the LCD (and was provided by
                                     four different suppliers during the period).



Table 3. Ninety-Day Supply of Drugs Covered Under the LCD (per beneficiary)

                                           Maximum                                          South Florida                                   Rest of the Country
                                           Payment Amount                                                 Percentage of                                Percentage of
                                           in LCD for 90-Day                   Average                    Beneficiaries                  Average       Beneficiaries
 Short Description of Drug                 Drug Supply                         Payment                   Exceeding LCD                   Payment      Exceeding LCD
 Budesonide inhalation solution                              $888                      $1,874                              74.5%              $746                14.3%
 (unit dose), up to 0.5 mg
 Levalbuterol inhalation solution                         $2,041                       $1,619                              24.0%              $736                0.7%
 (unit dose), 0.5 mg
  Albuterol inhalation solution                              $102                           $30                             0.3%               $35                0.6%
 (unit dose), 1 mg
 Ipratropium bromide inhalation                                $53                          $33                            19.7%               $24                3.4%
 solution (unit dose), 1 mg
The average payment amounts listed are for only an 83-day period in 2007. Not all beneficiaries receiving each drug had a claim during the
sampled time. Therefore, these monthly averages will not add up to the average spending per drug for the entire year.
Source: OIG analysis of inhalation drug claims in the Medicare NCH file, 2007.




                                     Although the average payment for the other inhalation drugs fell
                                     below the guidelines set by the LCD, several individual South Florida
                                     beneficiaries still exceeded the maximum payment amount for a
                                     90-day supply of those drugs. For example, nearly a quarter of South
                                     Florida beneficiaries exceeded the maximum amount for levalbuterol,

                                         20 We discussed the implementation of the budesonide edit only with staff from

                                     Jurisdiction C (the region including Florida) on August 18, 2008. We did not determine
                                     whether other PSCs had this edit in place.
                                        21 As discussed in the methodology and appendix, this 90-day supply was actually
                                     calculated based on claims from an 83-day period to allow for a 7-day delivery window.



          OEI-03-08-00290            A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA                            15
  F   I N D I N G        S


                        and 20 percent exceeded it for ipratropium bromide. In contrast, only
                        1 percent and 3 percent of beneficiaries in the rest of the country
                        exceeded the limits for these drugs, respectively. For the remaining
                        drug (albuterol), less than 1 percent of the beneficiaries in South
                        Florida and in the rest of the country exceeded the limits.

For 62 percent of inhalation drug claims in South               According to Medicare data,
                                                                for 62 percent of South Florida
    Florida, the beneficiary did not have a Part B
                                                                inhalation drug claims, the
     service visit during the last 3 years with the
                                                                beneficiaries on these claims did
   physician who reportedly prescribed the drug                 not have a Medicare-billed office
                        visit or other service in the past 3 years with the physician who
                        reportedly prescribed the drug. Medicare paid $114 million
                        (71 percent of total South Florida payments) for these inhalation drug
                        claims in 2007. For example, one beneficiary had almost $45,000 in
                        Medicare-paid claims for inhalation drugs in 2007 even though the
                        beneficiary did not have a single billed service visit with any of the six
                        physicians who reportedly prescribed the drugs.
                        For 16 percent of suppliers, not a single South Florida beneficiary to
                        whom they provided inhalation drugs had a billed service with the
                        physician listed on the claim form
                        In other words, every one of these suppliers’ inhalation drug claims
                        listed a beneficiary that did not have a Medicare-paid office visit or
                        other service in 2005, 2006, or 2007 with the physician who reportedly
                        prescribed the drugs. For an additional 27 percent of suppliers, more
                        than half of their inhalation drug claims were for beneficiaries who
                        had no Part B service claims with the physician listed on the claim.

                        Furthermore, among the 10 suppliers with the highest dollar amount
                        of inhalation drug reimbursement in 2007, between 66 percent and
                        97 percent of claims were for beneficiaries without any associated
                        Part B services. These 10 suppliers accounted for almost a quarter of
                        the total amount billed to Medicare for inhalation drugs in South
                        Florida.




      OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   16
F   I N D I N G        S



    Certain ordering physicians in South Florida             In 2007, 10 South Florida
                                                             physicians were each listed as
         were associated with a large volume of
                                                             the ordering physician on more
                         inhalation drug claims
                                                             than $3.3 million in submitted
                      inhalation drug claims, or an average of $12,000 per day. In
                      comparison, only one of the nearly 200,000 physicians ordering
                      inhalation drugs for beneficiaries in the rest of the country had claims
                      submitted totaling more than this amount.
                      Among the 10 South Florida physicians, all but one had significant
                      increases in the total amount billed with their identifiers as compared
                      to the amount billed in the previous year. For example, one physician
                      was listed as the ordering physician on $4.7 million in submitted
                      inhalation drug claims in 2007, a 56-fold increase from the $84,000
                      submitted for inhalation drugs claims billed with that identifier in
                      2006.

                      Each of the 10 physicians reportedly ordered inhalation drugs for an
                      average of 745 South Florida beneficiaries in 2007. These physicians
                      had Medicare-paid office visits or other Part B-related services in
                      2005 through 2007 with between 1 percent and 53 percent of the
                      beneficiaries for whom they reportedly ordered inhalation drugs in
                      2007.

                      Medicare paid a total of $28 million for inhalation drugs reportedly
                      ordered by these 10 physicians during the year. Based on claims
                      data, 148 different suppliers provided inhalation drugs to the South
                      Florida beneficiaries associated with these physicians. However,
                      33 suppliers accounted for the majority (79 percent) of the amount
                      paid by Medicare.




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   17
Δ      R E C O M M E N D A T I O N S




                      South Florida has been identified by OIG, CMS, and other agencies as a
                      high-risk area for fraudulent billings to Medicare by DME suppliers.
                      Fraudulent billings jeopardize the financial integrity of Medicare and
                      may endanger Medicare beneficiaries when the drugs are
                      overprescribed.

                      Our findings demonstrate that even though CMS has made efforts to
                      reduce DME fraud in South Florida, a problem may persist among DME
                      suppliers billing for inhalation drugs. Medicare spent substantially
                      more on inhalation drugs per beneficiary in South Florida during 2007
                      than on beneficiaries in the rest of the country. The greatest spending
                      discrepancies occurred among the brand name drugs budesonide and
                      levalbuterol. In particular, spending and utilization for budesonide
                      were much higher not only in comparison to averages in the rest of the
                      country but also in relation to coverage guidelines. Furthermore, many
                      of the South Florida beneficiaries did not have a Medicare service claim
                      during the last 3 years with the physician who reportedly prescribed the
                      inhalation drugs. Therefore, we recommend that CMS:

                      Ensure That All PSCs, Particularly the PSC Covering Florida, Are
                      Enforcing the Guidelines for Maximum Milligrams per Month for All
                      Inhalation Drugs, Especially Budesonide
                      LCD L5007 states that claims exceeding the maximum milligrams per
                      month for certain inhalation drugs should be denied as not medically
                      necessary unless there is documentation to justify larger amounts.
                      However, 75 percent of Medicare beneficiaries in South Florida
                      exceeded the utilization guideline for budesonide. Although we did not
                      determine whether documents supporting this use were provided to the
                      PSCs, it seems improbable that three-quarters of the South Florida
                      beneficiaries would require a higher dose of budesonide. In comparison,
                      only 14 percent of beneficiaries in the rest of the country had claims for
                      budesonide exceeding the utilization guideline.

                      Furthermore, although the average monthly reimbursement for other
                      inhalation drugs fell below the guidelines set by the LCD, several
                      individual South Florida beneficiaries still exceeded the maximum
                      milligrams per month. For example, almost a quarter of South Florida
                      beneficiaries exceeded the LCD guidelines for levalbuterol.

                      Based on our conversations with DME MAC staff from the jurisdiction
                      that includes Florida, claim edits have been put in place to detect when
                      beneficiaries exceed the maximum milligrams per month for most

    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   18
R   E C O        M M E N D A T                        I O N                S


                      inhalation drugs covered by the LCD. However, as of August 18, 2008,
                      there are currently no such edits for budesonide, even though the
                      utilization guideline has been in effect for over a year. Adding an edit to
                      detect overutilization of budesonide and ensuring that payments for
                      other inhalation drugs comply with LCD utilization guidelines will help
                      minimize payments for unnecessary medications.

                      Eliminate Medicare’s Vulnerability to Potentially Fraudulent or
                      Excessive Claims for Beneficiaries Prescribed Inhalation Drugs in
                      South Florida
                      Medicare spending per beneficiary on inhalation drugs, especially
                      budesonide, was much greater in South Florida than in the rest of the
                      country. The increased spending in this region, along with that fact
                      that the beneficiaries listed on more than 60 percent of South Florida
                      inhalation drug claims did not have a Medicare-billed office visit during
                      the last 3 years with the physician who reportedly prescribed the drug,
                      suggests improper billing for inhalation drugs by DME suppliers
                      operating in South Florida. One method CMS could use to better detect
                      aberrancies and further reduce Medicare’s vulnerability is working with
                      the DME MACs and PSCs to establish additional claims edits.

                      Review Cases in Which the DME Supplier Appears To Be Fraudulently
                      Billing Medicare for Inhalation Drugs and Take Appropriate Action
                      Based on the Review’s Results
                      DME suppliers billed almost twice as much for inhalation drugs
                      provided to beneficiaries in South Florida compared to beneficiaries in
                      the rest of the country. In addition, multiple suppliers often submitted
                      claims for the same drug for the same beneficiary in a single month.
                      Because South Florida has been a notoriously high-risk area for
                      supplier DME fraud, CMS should take action to ensure that claims
                      submitted by these suppliers, particularly the top-billing DME
                      suppliers, are legitimate. We will provide CMS with information on the
                      suppliers and physicians associated with a large quantity of
                      questionable inhalation drug claims for its review. Where appropriate,
                      CMS should take steps to revoke the Medicare billing numbers of
                      suppliers with fraudulent claims. Additionally, we will refer to our
                      Office of Investigations information on the DME suppliers with
                      aberrant billing patterns.




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   19
R   E C O        M M E N D A T                        I O N                S



                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with all three of our recommendations. CMS stated
                      that through its Program Integrity Miami field office and the DME Stop
                      Gap Plan, it has already identified and begun to address many of the
                      same issues cited in our report. In addition, CMS noted that OIG’s
                      findings reinforce the validity of the agency’s efforts.

                      In response to our recommendations, CMS stated that, as of September
                      2008, the DME PSC for South Florida and the DME MAC had
                      implemented a “medically unlikely” edit for budesonide. According to
                      CMS, there was an immediate and significant 50-percent decrease in
                      both allowed and billed amounts for the drug in Miami-Dade and
                      Broward counties. In addition, CMS described the efforts by its Miami
                      and Los Angeles field offices to identify physicians who ordered high
                      volumes of DME items, including inhalation drugs, for beneficiaries
                      with no clinical relationship to the physician. Following the interviews
                      with these physicians, the field office revoked billing privileges of
                      suppliers not meeting supplier standards and established granular
                      prepay edits at the beneficiary, supplier, physician, and procedure code
                      level to deny payment to suppliers for DME never ordered by these
                      physicians. Finally, CMS expressed its commitment to continually
                      reviewing and refining the process to improve the Medicare program
                      and will review any additional information provided by OIG.

                      We did not make any changes to the final report based on CMS’s
                      comments. For the full text of CMS’s comments, see Appendix B. We
                      have provided CMS with information on the suppliers and physicians
                      that we identified as having potentially fraudulent activities in this
                      report.




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   20
Δ   A P P E N D I X                              ~            A




                  Calculation for Local Coverage Determination Guideline Comparison
                  A local coverage determination (LCD L5007) provides guidelines for the
                  maximum milligrams per month that may reasonably be billed (without
                  additional documentation) for the majority of the inhalation drugs
                  covered by Medicare. Because beneficiaries may receive up to a 90-day
                  supply of a drug, edits for the utilization guideline are set for an 83-day
                  period (excluding a 7-day grace period for delivery). Because of this, we
                  used an 83-day period for our LCD comparison analysis.

                  For albuterol, levalbuterol, and ipratropium bromide, we identified each
                  beneficiary’s initial drug claim in the first quarter of 2007 and selected
                  the claims submitted in the 83 days following. Because budesonide did
                  not have an LCD guideline until July 1, 2007, we selected the initial
                  claim in the third quarter of 2007. For each selected beneficiary’s
                  83-day period, we calculated the total Medicare payment amount for
                  each drug.

                  Because we selected beneficiaries with their initial claim in the first or
                  third quarter, not all beneficiaries prescribed that drug were included in
                  the analysis. For example, 25 percent of beneficiaries taking
                  levalbuterol in 2007 did not have a claim in the first quarter and
                  therefore were not included in this drug’s analysis.

                  Additionally, we determined the average Medicare payment amount
                  that would be reflective of the maximum milligrams listed in the LCD
                  for 3 months. Because beneficiaries could have their 83-day period
                  extend into the following quarter (e.g., a beneficiary could have had the
                  initial claim on the last day of the first quarter, meaning the majority of
                  the 83 days falls into the second quarter), we calculated the average
                  maximum amount per month based on the first and second quarter for
                  albuterol, levalbuterol, and ipratropium bromide, and based on the third
                  and fourth quarter for budesonide. We calculated the average based on
                  two quarters because Medicare payment amounts for each drug may
                  fluctuate from quarter to quarter. To make it representative of the
                  83-day period, we multiplied the average maximum amount per month
                  by three (approximately 90 days).




OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   21
A   P   P E N D       I X            ~          A




                      Using the beneficiary’s total Medicare payment amount in the 83 days,
                      we determined the percentage of beneficiaries who exceeded the
                      payment amount associated with the maximum milligrams listed in the
                      LCD for 3 months. We also calculated the average Medicare payment
                      amount per each drug for South Florida beneficiaries and compared it to
                      the average amount for beneficiaries in the rest of the country. We then
                      compared both amounts to the 90-day maximum amount in the LCD
                      guidelines.




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   22
OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   23
Δ   A P P E N D I X                              ~            B


     Agency Comments




OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   24
A   P   P E N D       I X            ~          B




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   25
Δ      A C K N O W L E D G M E N T S



                      This report was prepared under the direction of Robert A. Vito, Regional
                      Inspector General for Evaluation and Inspections in the Philadelphia
                      regional office, and David E. Tawes, Director of the Medicare and
                      Medicaid Prescription Drug Unit.

                      Stephanie Yeager served as the lead analyst for this study. Other
                      regional and central office staff who contributed include Scott Manley
                      and Dave Graf.




    OEI-03-08-00290   A B E R R A N T C L A I M PAT T E R N S   FOR   I N H A L AT I O N D R U G S   IN   SOUTH FLORIDA   26
